                      WRITTEN STATEMENT OF TODD J. ZINSER
                               INSPECTOR GENERAL
                         U.S. DEPARTMENT OF COMMERCE

                              HEARING ON
         REAUTHORIZATION OF THE NATIONAL MARINE SANCTUARIES ACT

                               BEFORE THE
             SUBCOMMITTEE ON FISHERIES, WILDLIFE AND OCEANS
                    COMMITTEE ON NATURAL RESOURCES
                 UNITED STATES HOUSE OF REPRESENTATIVES

                                         June 18, 2008


Madam Chairwoman, Ranking Member, and Members of the Subcommittee:

Thank you for inviting us to testify today on the reauthorization of the National Marine
Sanctuaries Act. My office recently reviewed the National Marine Sanctuary Program and issued
a report in February 2008. Our testimony today is based on this work, which included visits to
eight sanctuaries and discussions with stakeholders representing the many and diverse interests
affected by this program.

The National Marine Sanctuary Program, operated by NOAA’s National Ocean Service,
manages 13 marine sanctuaries and one national monument. Together, these protected areas
encompass more than 158,000 square miles of ocean and Great Lakes marine habitats. The
sanctuaries range in size from a quarter mile in American Samoa’s Fagatele Bay to 5,300 square
miles in California’s Monterey Bay. The Papahanaumokuakea Marine National Monument in the
Northwestern Hawaiian Islands, designated by President Bush in 2006, encompasses 138,000
square miles.

These special habitats have conservation, scientific, or historical significance. They include
deep-ocean and near-shore coral reefs, whale migration corridors, and deep sea canyons. They
offer safe breeding grounds for threatened species and harbor a vast array of underwater
archeological sites and cultural resources. The goal of the National Marine Sanctuary Program is
to protect and enhance their biodiversity and ecological integrity. A map and listing of existing
sanctuaries appears in appendix I.

The sanctuary program was established in 1972 but started slowly, with no designated sites for 3
years, no separate budget for 5 years, and no federal field staff for 10 years. In 1990, the
operating budget for the entire program was $3 million. It steadily increased in the late 1990s
and reached nearly $43 million in 2003, according to NOAA. Over the past 5 years funding has
increased (appendix II) to cover growing operational costs and new spending on facilities, ships,
and other needed equipment, such as data buoys to monitor water quality. NOAA reported FY
2008 enacted funds of $60.5 million. The program employs nearly 400 government and contract
staff and maintains a fleet of 46 vessels.



                                                                                     Page 1 of 10
In addition to our report on the sanctuaries program, several other studies have been conducted,
including a recent review by the National Academy of Public Administration (NAPA) and a
program assessment by the Office of Management and Budget.

My testimony today will focus on three areas:
   1. The National Marine Sanctuary Program faces many management challenges but is
      meeting objectives.
   2. As part of reauthorization, Congress should consider
                  providing the Secretary with the flexibility to establish sanctuary management
                   plan time frames,
                  providing the Secretary with the same authority for managing marine
                   monuments as for managing sanctuaries, and
                  establishing a title within the act that specifies protection of maritime heritage
                   resources.
   3. NOAA can take several steps to strengthen management of sanctuary enforcement
      efforts.


THE NATIONAL MARINE SANCTUARY PROGRAM FACES MANY MANAGEMENT CHALLENGES
BUT IS MEETING OBJECTIVES

The National Marine Sanctuary Program is effectively protecting marine resources despite the
enormous expanse of waters under its management and the distinct conservation threats facing
the individual sanctuary sites. Consider that:

      The program manages underwater areas that are far-reaching and geographically diverse,
       each with its own unique mix of complex marine life and environmental conditions that
       require unique conservation approaches.
      Within these waters, the sanctuary program must balance the protection and conservation
       of resources with vital commercial interests—such as fishing and energy production—
       and must coordinate its activities and efforts with numerous federal agencies, other
       components within NOAA, and outside stakeholders.
      It must manage proactively by anticipating the unknown impacts of global climate
       change, ocean fishing, and pollution on each sanctuary and the monument.

Yet recent research confirms that the sanctuary program is improving the health of ecosystems
and the wildlife populations that depend on them. For example,

      Certain areas in the Florida Keys sanctuary that forbid all fishing are showing an increase
       in the size and abundance of some economically important marine species, such as spiny
       lobsters, grouper, and snapper fish.



                                                                                        Page 2 of 10
      Seabird populations in the Gulf of the Farallones sanctuary off the California coast have
       rebounded in response to the sanctuary’s efforts to decrease human disturbance at
       breeding and nesting times.
      The Monterey Bay sanctuary has experienced a significant increase in the northern
       elephant seal population as a result of sanctuary regulations, outreach, education, and
       strict state protections.

The program is preserving cultural and archaeological resources as well, such as the USS
Monitor, the Civil War battleship sunk off the coast of North Carolina, and shipwrecks in Lake
Huron’s Thunder Bay, by prohibiting or restricting potentially damaging activities and
equipment. The Thunder Bay sanctuary, for example, restricts the use of certain anchoring
devices to minimize harm to the protected shipwrecks within its waters.

The sanctuary program has been able to leverage its resources with those of other public
agencies at all levels of government to help accomplish its goals. OMB, in its 2004 program
assessment, cited the Monterey Bay sanctuary’s coalition of 25 federal, state, and local agencies
and public and private groups dedicated to protecting and enhancing water quality in the
sanctuary and its watersheds. Overall, OMB found that the program has a clear purpose, is well
managed, and uses the best available science and public involvement to protect marine resources.
NAPA characterized the sanctuary program as offering “a unique and promising model for
effective multipurpose marine governance.”

Most stakeholders in marine resource protection view the sanctuary program favorably as well,
and many of those we spoke with during our review were eager to see the program expand to
protect additional marine areas. But NOAA has not added a new site since the designation of
Thunder Bay in 2000, after Congress effectively limited it from doing so in the sanctuary act’s
2000 reauthorization: as revised, the statute required NOAA to determine whether it could
effectively implement management plans and inventory its resources at existing sites before
designating any new ones (with the exception of Thunder Bay).

In 2005, NOAA reported that it had sufficient resources to inventory and study existing sites, but
not to implement sanctuary management plans. NOAA further stated that the addition of a new
site (excluding the Northwestern Hawaiian Islands monument) would have a negative impact on
the system. However, it seems to us that in light of the sanctuary program’s track record for
effectively leveraging resources, other factors, in addition to funding, should be considered in
determining whether new sanctuaries should be designated. At a minimum, NOAA should be
engaged in a transparent process for developing a list of potential sites for future designation and
determining the factors, criteria, and resource needs for adding sanctuaries.

In the meantime, this moratorium on site designation has had its benefits: NOAA has been able
to improve its management of existing sanctuaries and avoid rapid, unmanageable growth, and
our work, like the OMB and NAPA assessments, found the program to be generally well run. We
did identify some management and operational enhancements that could strengthen the program
and we reported them to NOAA. NOAA concurred with our findings and is currently
implementing our recommendations.



                                                                                       Page 3 of 10
AS PART OF REAUTHORIZATION, CONGRESS SHOULD CONSIDER (1) PROVIDING THE
SECRETARY WITH THE FLEXIBILITY TO ESTABLISH SANCTUARY MANAGEMENT PLAN TIME
FRAMES, (2) PROVIDING THE SECRETARY WITH THE SAME AUTHORITY FOR MANAGING
MARINE MONUMENTS AS FOR MANAGING SANCTUARIES, AND (3) ESTABLISHING A TITLE
WITHIN THE ACT THAT SPECIFIES PROTECTION OF MARITIME HERITAGE RESOURCES

Now I would like to turn to three issues that the subcommittee may want to consider as it
deliberates the act’s reauthorization.

   1. Congress should consider providing the Secretary with the flexibility to establish
      sanctuary management plan time frames. Congress may want to consider modifying the
      time frame for developing and reviewing sanctuary management plans. Under provisions
      of the current act, the Secretary of Commerce and, by delegation, NOAA and the
      individual sanctuary sites must develop and review sanctuary management plans every 5
      years. These plans are comprehensive, site-specific documents that require enormous
      effort to complete. They summarize existing programs and regulations, articulate goals
      and priorities, and guide decision making.

       In mandating these plans, Congress established an important process for ensuring
       extensive public participation in managing marine protected areas. Individual sanctuaries
       go to great lengths to seek public comment on management plans and to develop action
       plans or new regulations that address citizens’ concerns. For example, NOAA’s in-
       progress reviews of management plans for three California sanctuaries—Cordell Bank,
       Gulf of the Farallones, and Monterey Bay—has entailed 36 public hearings.

       In our review of the sanctuary program, we found that management plans were in place at
       all sanctuaries, but many had not been updated in more than 10 years (appendix III).
       Program managers acknowledged that these reviews should be completed in less time,
       but emphasized that some plans are more complex than others because of a sanctuary’s
       size, location, types of protected resources, and level of use.

       In effect, we found these plans are really living documents: every time a new threat
       emerges, NOAA needs to revisit the plans, develop a mitigation strategy, and seek public
       input. The 5-year time frame for review and update may not be realistic across the board.
       The Secretary should have the flexibility to establish the time frame requirements for
       management plans to reflect variations in the sanctuaries’ complexity, circumstances, and
       related management challenges.

   2. Congress should consider providing the Secretary with the same authority for
      managing marine monuments as for managing sanctuaries. The Papahanaumokuakea
      (Northwestern Hawaiian Islands) Marine National Monument, created under authority of
      the Antiquities Act rather than the marine sanctuaries act, is technically not part of the
      sanctuary system. Its marine portions are managed by the sanctuary program because in
      creating the monument, President Bush designated NOAA a co-trustee, along with the
      Department of the Interior and the state of Hawaii.




                                                                                    Page 4 of 10
   The monument’s marine areas account for the majority of protected waters managed by
   the sanctuary program. These waters contain the largest coral reef ecosystem in the
   United States and are home to more than 7,000 marine species, including the endangered
   monk seal and the threatened green turtle. Nearly a quarter of the species in monument
   waters are found nowhere else on the planet.

   The sheer size and biodiversity of the protected area pose considerable management
   challenges. Yet according to NOAA, the Antiquities Act does not provide for some of the
   valuable management tools available to NOAA under the sanctuaries act, in particular,
   civil penalties for violations, recovery of damages for injuries to sanctuary resources, and
   community-based advisory councils. NOAA is therefore unable to apply these time-
   tested best practices in the monument. In discussing reauthorization, the subcommittee
   may want to consider giving NOAA the same authorities for managing marine
   monuments as it has for managing marine sanctuaries.

3. Congress should consider establishing a title within the act that specifies protection of
   maritime heritage resources. The marine sanctuaries act also seeks to identify and
   protect certain areas of the marine environment that contain items of historical, cultural,
   or archaeological significance. These include historic shipwrecks, prehistoric
   archaeological sites, and a range of other cultural artifacts and remains. In fact, the first
   sanctuary designated under the program was established to preserve the USS Monitor—a
   piece of Civil War history. Twenty-five years would pass before designation of a second
   sanctuary dedicated to maritime artifacts: the Thunder Bay sanctuary in Lake Huron. At
   present, these two sanctuaries are the only ones designated solely for the purpose of
   protecting maritime heritage resources, although there are many other significant
   archeological and cultural underwater sites that might also warrant protection. In addition
   to inadvertent damage these resources might sustain in unprotected waters, new
   technology now makes many sites easier to locate, as sensing equipment has become
   more sophisticated, inexpensive, and available to the public. As a result, more people
   may be able to reach and explore these sites, increasing the risk that historical artifacts
   may be damaged, stolen, or otherwise lost.

   To acknowledge the importance of preserving maritime history, NOAA established a
   Maritime Heritage Program in 2002. This initiative gives special emphasis to preserving
   these important, nonrenewable resources and promoting their appreciation. NOAA has
   also proposed the creation of a National Maritime Heritage Preservation Act to bring
   greater attention to these resources and provide for specific authorities. The current
   marine sanctuaries act gives more emphasis to protecting marine resources than to
   identifying and protecting maritime heritage sites. The subcommittee may want to
   consider establishing a title within the act that specifies protection of maritime heritage
   resources to help ensure they are preserved for the education and appreciation of present
   and future generations.




                                                                                   Page 5 of 10
NOAA CAN TAKE SEVERAL STEPS TO STRENGTHEN MANAGEMENT OF SANCTUARY
ENFORCEMENT EFFORTS

I would like to briefly discuss several enforcement issues we identified during the course of our
review that warrant NOAA’s attention and action.

Protection of marine resources requires active enforcement of sanctuary regulations. Sanctuary
violations range from failure to comply with permit requirements to wildlife harassment, habitat
alteration or destruction, and damage or removal of historical artifacts. The National Marine
Sanctuary Program’s approach to enforcement is twofold: (1) foster voluntary compliance
through public outreach and education, and (2) maintain a law enforcement presence to prevent
and detect violations.

The National Marine Fisheries Service’s Office of Law Enforcement (OLE) is the NOAA
component responsible for enforcing laws that protect and regulate our nation’s living marine
resources and their natural habitats. OLE has authority to enforce over 37 statutes, including the
marine sanctuaries act, as well as a number of treaties related to conserving and protecting
marine resources. But the majority of its enforcement work is in the fisheries.

Most sanctuary and enforcement officials we spoke with during our review, as well as numerous
stakeholders, believe the law enforcement presence in the sanctuary system is insufficient. Since
OLE is part of the Fisheries Service, its emphasis is on fisheries enforcement. The sanctuary
program is part of a separate line office within NOAA—the National Ocean Service. OLE
receives some funding from the sanctuary program for enforcement (approximately $200,000 in
FY 2007). It has also assigned a special agent or enforcement officer, as a collateral duty, to be a
liaison with each sanctuary and the monument. However, OLE has only one enforcement officer
dedicated full-time to sanctuary work.

At the time of our review, OLE was not tracking all sanctuary incidents or cases, so it did not
have a good understanding of the number and type of regulatory violations it was finding in the
sanctuaries. It has since improved its sanctuary enforcement record-keeping, as we
recommended, but it is too soon to use the data to determine the overall level of enforcement
activity in the sanctuaries.

Sanctuary program officials are taking steps on their own to strengthen enforcement: for the past
year they have been developing a national plan with the objective of identifying and prioritizing
threats to sanctuary resources, along with enforcement tools for addressing them. Sanctuary
program officials need to ensure that they coordinate this effort with OLE, which will largely be
responsible for implementing the plan.

A more near-term option for strengthening enforcement in the sanctuaries is to make greater use
of “summary settlement schedules” for handling lesser offenses. These schedules establish fixed
fine amounts for misdemeanors and allow both federal and state enforcement officers to issue
tickets on the spot. At present, only 3 of the 13 sanctuaries have these schedules. We
recommended in our report that NOAA expand the types of violations covered by the schedules,
increase penalty amounts as appropriate, and develop schedules for the remaining sites.



                                                                                       Page 6 of 10
In summary, we believe there are several actions that NOAA and the sanctuary program can take
to strengthen the management of enforcement in the sanctuaries:

   1. Finalize the national sanctuary enforcement plan.

   2. Address the inherent management risks in having sanctuary regulations managed by one
      line office—the National Ocean Service—but enforced by another—the National Marine
      Fisheries Service.

   3. Ensure that OLE continues tracking sanctuary violations and uses this data to manage
      enforcement resources and priorities.

   4. Consider broadening enforcement options by making greater use of summary settlement
      schedules.

Madam Chairwoman and Members of the Subcommittee, this concludes my statement. I would
be happy to answer questions at this time.




                                                                                 Page 7 of 10
Appendix I:
National Marine Sanctuary Sites




                                       Designation of Marine Sanctuaries
                                                                                                        FY 08
                                                                                        Area
                                                                           Year                         Budget
      Sanctuary                     Protected Resources                               (square
                                                                         Designated                       ($,
                                                                                       miles)
                                                                                                      thousands)
U.S.S. Monitor
(VA/NC)
                         Wreck of ironclad Civil War ship                  1975           1             718.8
* Key Largo (FL)         Coral reefs, diverse fisheries, endangered
                         species, historic wrecks
                                                                           1975         100              0*
                         Kelp forests, rocky shores, fisheries, marine
Channel Islands (CA)
                         mammals, endangered species
                                                                           1980        1,658           1,982.0

Gulf of the Farallones   Coastal beaches, fisheries, endangered
(CA)                     whales, almost-pristine estuaries, seabirds
                                                                           1981        1,255           1,549.9

                         Scattered patchy limestone reefs with
Gray’s Reef (GA)         endangered or threatened whales and turtles,      1981          23             995.4
                         and recreational fisheries
                                                                                        5.32
* Looe Key (FL)          Coral reef, diverse fisheries, endangered
                         species, shipwrecks
                                                                           1981       nautical           0*
                                                                                       miles
                                                                                         .25
Fagatele Bay             Coral tropical reef ecosystem in eroded
(American Samoa)         volcanic crater
                                                                           1986         (163            355.0
                                                                                       acres)
                        Productive upwelling area above and around
Cordell Bank (CA.)
                        pinnacles, ridges, and the bank
                                                                          1989          526             662.3
                        Third largest coral reef system in the world,
Florida Keys (FL)       shallow near-shore habitats, diverse              1990         3,674           5,134.5
                        fisheries, endangered species, shipwrecks
Flower Garden Banks     Three underwater banks of healthy offshore
(TX)                    coral reefs, endangered turtles
                                                                          1992           56            1,086.3
                        Deep marine canyons, kelp forests, rich
Monterey Bay (CA)
                        fishing grounds, elephant seals, sea otters
                                                                          1992         5,328           2,709.7
Gerry E. Studds         Endangered whales and their habitat above
Stellwagen Bank         and around the sand and gravel bank,              1992          842            1,524.9
(MA)                    shipwrecks, fisheries
Hawaiian Islands        Endangered whale breeding and calving
Humpback Whale (HI) grounds
                                                                          1992         1,300           1,544.8
                        Isolated shoreline, kelp forests, offshore
Olympic Coast (WA)
                        seabird colonies, shipwrecks
                                                                          1994         3,310           1,575.7
Thunder Bay (MI)        Shipwrecks and maritime heritage                  2000          448             823.9
Papahanaumokuakea       Coral reefs, shipwrecks, maritime heritage,
Marine National         seabirds deep water around uninhabited            2006        138,000          7,020.3
Monument (HI)           chain of small islands and atolls
Source: National Marine Sanctuary Program
* Looe Key and Key Largo were incorporated into the Florida Keys National Marine Sanctuary in 1990.




                                                                                                              Page 8 of 10
Appendix II
                                    NMSP Funding for Fiscal Years 2003-2008

                    $70,000
                                                        $60,175                             $60,555
                                            $56,756                             $56,190
                    $60,000
                                                                    $51,137
                    $50,000
                                $42,722
   $ in thousands




                    $40,000

                    $30,000

                    $20,000

                    $10,000

                        $0
                              FY 2003     FY 2004     FY 2005     FY 2006     FY 2007     FY 2008




Source: NOAA Budget Office, June 13, 2008

Note: These figures include operation and capital funds. Other sources of revenue, such as fines and permit
revenues, are excluded.




                                                                                                      Page 9 of 10
Appendix III

Status of Management Plan Reviews (as of June 16, 2008)
Sanctuary and Year of Previous Management            Start Date a                Review Status
Plan
Channel Islands (1983)                               June 11, 1999                 In progress b
Cordell Bank (1989)                                  November 8, 2001              In progress c
Fagatele Bay (1984)                                  Starting first review in 2008
Florida Keys (1996)                                  June 8, 2001                  Completed – January 2008
Flower Garden Banks (1991)                           September 7, 2006             In progress
Gray’s Reef (1983)                                   November 19, 1999             Completed – October 2006
Gulf of the Farallones (1987)                        November 8, 2001              In progress c
                                                     First review completed in 2002
Hawaiian Islands Humpback Whale (2002)
                                                     Starting second review in 2008
Monterey Bay (1992)                                  November 8, 2001              In progress c
Olympic Coast (1994)                                 Starting first review in 2008
Papahanaumokuakea (N/A)                              Draft original management plan issued April 2008
Stellwagen Bank (1993)                               November 18, 1998             In progress
Thunder Bay (1999)                                   September 7, 2006             In progress
Monitor (1983)                                       Starting first review in 2008
Sources: Federal Register, NMSP staff
a
  A review begins with the publication of a notice of intent to review a sanctuary’s management plan in the
Federal Register and ends with the publication of a notice of availability of the final plan.
b
  Channel Islands sanctuary anticipates completing its management plan review by November 2008.
c
  Cordell Bank, Gulf of the Farallones, and Monterey Bay sanctuaries anticipate completing their management
plan reviews in Fall 2008.




                                                                                                 Page 10 of 10
